September 30, 1999

ANTHONY J. VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

ROBERT T. DAVIS
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

ROBERT J. SHEEHAN
ATLANTA DISTRICT MANAGER

SUBJECT:	 Allegations of Unwarranted Disciplinary Actions Against Postmasters in a
          District in the Southeast Area (Report Number LR-AR-99-012)

This report presents results of an audit of allegations of unwarranted disciplinary actions
taken against Postmasters in a District in the Southeast Area (Project Number
99EA005LR002). We conducted this audit in response to allegations made by the
National President of the National Association of Postmasters of the United States.
After a preliminary review of the allegations, we decided to expand our scope and
conduct an audit. The objective of the audit was to determine if the allegations were
founded.

The audit disclosed that in some cases disciplinary actions taken against Postmasters
were warranted. However, in other cases the discipline issued to Postmasters was not
warranted. In addition, we found that District management did not follow the USPS
disciplinary action appeals process. We also found that the USPS disciplinary action
appeals policy does not stipulate a timeframe for the area reviewer to respond to
appellants. We believe a modification of this policy is necessary.

The Vice President, Southeast Area Operations, strongly disagreed with our conclusion
that discipline received by the Postmasters was unwarranted. He did agree that the
timeframes for disciplinary action appeals in the Employee and Labor Relations Manual
Subchapter 650 should be followed. The Vice President, Labor Relations, agreed with
our recommendation to provide area reviewers with a timeframe for responding to
Employee and Labor Relations Manual Subchapter 650 disciplinary action appeals.
Management’s responses and our evaluation of these responses are attached to the
report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact             ,
             , or me at

Billy Sauls
Assistant Inspector General
 for Employee

Attachment

cc: 	 Clarence E. Lewis, Jr.
      Yvonne Maguire
      Alan B. Kiel
      John Gunnels
Allegations of Unwarranted Disciplinary Actions                                 LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                    TABLE OF CONTENTS
Part I

Executive Summary                                                                       i


Part II

Introduction

    Background                                                                          1
    Objectives, Scope, and Methodology                                                  2


Audit Results

    Allegations of Unwarranted Discipline for Violating the Policy on Local             4

    Buying Authority for Facility Repair and Alteration Contracts
        National Policy on Local Buying Authority                                       4

        District Policy on Local Buying Authority                                       4

        Violations of Policies on Local Buying Authority                                5


    Allegations Concerning Discipline Related to Address Management                     6

        System Street Reviews 

        USPS Policies on Performance Evaluations                                        6

        USPS Guidelines on Delivery/Address Management System Reviews                   7

        Failure to Achieve Minimum Scores                                               7


    Compliance with USPS Policy on the Appropriate Level of Discipline                  8

      USPS Policy on Issuing Disciplinary Actions and District Process for Issuing      9

         Discipline for Local Buying Authority Violations 

      District Process for Issuing Discipline for Failure to Achieve Minimum Street    10 

         Review Scores 


          Recommendation                                                               11 

          Management’s Comments                                                        11 

          Evaluation of Management’s Comments                                          11 


    Equitability of Discipline                                                         12 

    Allegations Concerning Disciplinary Action Appeals Process                         12 

        USPS Policies on Non-Bargaining Employee Disciplinary Action Appeals           13 

        Policy on Appealing Letters of Warning                                         13 

        Policy on Appealing Letters of Warning in Lieu of Time-Off Suspension          14 

        Disciplinary Action Appeal Decisions Not Rendered Timely                       14 

        Recommendations                                                                16 

        Management’s Comments                                                          16 

        Evaluation of Management’s Comments                                            16 


Appendix: Management’s Comments                                                        17 




                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                     LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                    EXECUTIVE SUMMARY
 Introduction 	                 This report presents the results of our audit of allegations of
                                unwarranted disciplinary actions taken against Postmasters
                                in the Atlanta District. The objective of the audit was to
                                determine if the allegations were founded. We also audited
                                allegations that the discipline was punitive and not
                                corrective, and that it was not equitable. In addition, we
                                addressed the concern that District management did not
                                follow the disciplinary action appeals process.

 Results in Brief	              We found that discipline issued to Postmasters was
                                warranted because they intentionally violated the national
                                policy on local buying authority when they split contracts in
                                order to stay within the authorized spending authority.
                                Because of the seriousness of this violation, we do not
                                agree with the Postmasters that a “discussion” would have
                                been more appropriate than formal discipline. We found
                                that District management did adhere to United States Postal
                                Service (USPS) policy for determining the appropriate level
                                of discipline for Postmasters who violated the national policy
                                on local buying authority.

                                However, discipline issued to Postmasters for failure to
                                achieve the minimum score for Address Management
                                System street reviews was not warranted. We agree with
                                the Postmasters that morale was affected when punitive,
                                instead of corrective, action was taken regarding their
                                performance. The District Manager and the Manager of
                                Post Office Operations did not adhere to USPS policy when
                                punitive, instead of corrective, actions were taken against
                                Postmasters for not achieving street review goals. We
                                agree with Postmasters that individual discussions may
                                have resolved this problem.

                                We believe discipline issued to Postmasters for violating the
                                local buying authority policy was equitable because some
                                violations were not as severe as others, and thus did not
                                justify issuing the same level of discipline.

                                We found that the District Manager did not adhere to the
                                USPS disciplinary action appeals process when he did not
                                follow the prescribed timelines for responding to the
                                Postmasters. In addition, we found that the area reviewer
                                did not respond to Postmasters within a reasonable time.



                                                     i
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                This lack of timeliness resulted in the Postmasters’
                                perceptions that their concerns were not taken seriously and
                                that they were not treated fairly.

                                Finally, we found that the USPS disciplinary action appeals
                                policy does not stipulate a timeframe for the area reviewer
                                to respond to appellants. We believe a modification of this
                                policy is necessary.

 Summary of                     We offer the following recommendations:
 Recommendations
                                1. The Vice President, Southeast Area Operations, require
                                   the Atlanta District Manager and the Managers of Post
                                   Office Operations to comply with USPS policies
                                   regarding issuing discipline for unsatisfactory
                                   performance. In addition, hold these Managers
                                   accountable for issuing punitive discipline when
                                   corrective measures are available.

                                2. The Vice President, Southeast Area Operations, require
                                   the Atlanta District Manager to comply with USPS
                                   policies regarding the disciplinary action appeals
                                   process for non-bargaining employees. In addition, hold
                                   the District Manager accountable for appeals not
                                   handled in a timely manner.

                                3. The Vice President, Labor Relations, modify the
                                   Employee and Labor Relations Manual to include a
                                   specific timeframe for the area reviewer to respond to
                                   Subchapter 650 disciplinary action appeals.

 Summary of                     Management strongly disagreed with recommendation 1
 Management’s                   and agreed with recommendations 2 and 3. We
 Comments                       summarized these responses in the report and included the
                                full text of the comments in the appendix. Management also
                                raised a concern regarding audits that explore whether
                                discipline and the subsequent penalty were warranted.

 Evaluation of                  We do not agree with management’s comments on
 Management’s                   recommendation 1. Our finding of disciplinary actions
 Comments                       against Postmasters is supported by USPS policies for
                                managing, supporting and deciding whether to issue
                                discipline to unsatisfactory performers. Also, the Inspector




                                                     ii
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                   LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                General Act authorizes the OIG to conduct audits relating to
                                the programs and operations of the USPS, including audits
                                that address the appropriateness of disciplinary actions.




                                                     iii
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                                        LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                               INTRODUCTION
    Background                       In a letter dated October 16, 1997, the National President of
                                     the National Association of Postmasters of the United
                                     States requested that the Office of Inspector General (OIG)
                                     investigate allegations of abuse, intimidation, and a hostile
                                     work environment in the Atlanta District, Southeast Area.
                                     The allegations included the issuance of unfair discipline to
                                     Postmasters.

                                     In November 1997 the OIG referred this matter to the USPS
                                     Chief Operating Officer and Executive Vice
                                     Presidentbecause the National President had previously
                                     contacted USPS regarding the allegations. In
                                     correspondence dated November 5, 1997, the USPS
                                     Manager for Field Support and Integration recommended to
                                     the National President that the National Association of
                                     Postmasters of the United States and USPS Southeast
                                     Area conduct a joint review. On December 2, 1997, the
                                     USPS Chief Operating Officer and Executive Vice President
                                     informed us that the National Association of Postmasters of
                                     the United States had not responded to the USPS
                                     proposal.1

                                     On February 8, 1999, we met with representatives of the
                                     Georgia Chapter of the National Association of Postmasters
                                     of the United States to discuss their concerns about
                                     discipline issued against the Postmasters. Chapter officials
                                     brought to our attention 11 cases in which they believed that
                                     discipline taken against Postmasters was unwarranted.
                                     Specifically, four Postmasters were disciplined for violating
                                     the USPS national policy on local buying authority for facility
                                     repair and alterations, and seven were disciplined for failure
                                     to meet the District’s minimum score on the Address
                                     Management System street reviews. In addition, the
                                     Chapter officials asked us to review the length of time taken
                                     by the District Manager and area reviewer to render
                                     disciplinary action appeal decisions in 7 of the 11 cases.




1
    We contacted the Association on June 2, 1999, and were told that the National President did not agree with the
    recommended approach and decided not to respond to USPS.



                                                           1
                                                Restricted Information
Allegations of Unwarranted Disciplinary Actions                                        LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


    Objectives, Scope,             Our objectives were to determine whether:
    and Methodology
                                   •	 Discipline issued to the Atlanta District Postmasters for
                                      violating the national policy on local buying authority was
                                      warranted.

                                   •	 Discipline issued to the Atlanta District Postmasters for
                                      not achieving the minimum score for Address
                                      Management System street reviews was warranted.

                                   •	 District management adhered to USPS policy for
                                      determining the appropriate level of discipline in all
                                      cases.

                                   •	 District management issued discipline equitably to all
                                      Postmasters involved.

                                   •	 District management adhered to the disciplinary action
                                      appeals process as outlined in USPS policies and
                                      procedures.

                                   We reviewed 31 cases2 regarding Postmasters who violated
                                   the local buying authority policy or failed to meet the
                                   minimum score on the Address Management System street
                                   reviews. Some of the information regarding these cases
                                   was provided to us by members of the Georgia Chapter of
                                   the National Association of Postmasters of the United
                                   States. Other information was obtained from the Atlanta
                                   District Labor Relations and Personnel Offices.

                                   We obtained documents and conducted interviews with the
                                   following individuals within the Atlanta District: the District
                                   Manager, a Labor Relations Specialist, an Attorney in the
                                   Legal Department, and the Address Management Systems
                                   Manager. Within the Southeast Area, we conducted
                                   interviews with the Operations Programs Analyst, Executive
                                   Program Director for Labor Relations, and Inspectors from
                                   the United States Postal Inspection Service. At USPS
                                   Headquarters, we spoke with the Address Management
                                   System Manager. In addition, we interviewed the National
                                   President and representatives of the Georgia Chapter of the
                                   National Association of Postmasters of the United States.


2
    Each case represented one Postmaster.



                                                       2
                                            Restricted Information
Allegations of Unwarranted Disciplinary Actions                                  LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                We reviewed USPS policies and procedures related to local
                                buying authority, disciplinary action for non-bargaining
                                employees, performance evaluations, the disciplinary action
                                appeals process for non-bargaining employees, and
                                requirements for conducting the Address Management
                                System street reviews. In addition, we reviewed
                                investigative memoranda prepared by the Inspection
                                Service domiciled in the Atlanta District.

                                This review was conducted from February through August
                                1999, in accordance with generally accepted government
                                auditing standards, and included such tests of internal
                                controls as we considered necessary under the
                                circumstances.




                                                     3
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                                        LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                             AUDIT RESULTS
    Allegations of                  Of the 31 cases we reviewed, 20 cases3 were related to
    Unwarranted                     violations of the local buying authority policy. Of the 20
    Discipline For                  cases, 4 Postmasters received discipline and 16 did not.
    Violating the Policy            We concluded that discipline issued to the four Postmasters
    on Local Buying                 was warranted. USPS management appropriately
    Authority for Facility          determined that discipline was warranted because the
    Repair and Alteration           Postmasters intentionally violated the national policy on
    Contracts                       local buying authority when they split contracts. The
                                    Postmasters split the contracts in order to stay within the
                                    national approval authority. Because of the seriousness of
                                    this violation, we do not agree with the Postmasters that a
                                    “discussion” would have been more appropriate than formal
                                    discipline.

    National Policy on              Section 713 of the Administrative Support Manual outlines
    Local Buying Authority          the national policy on local buying authority for USPS
                                    facilities and post offices. Local buying authority for
                                    Postmasters is the authorization to buy and pay for day-to-
                                    day operational needs at the facilities for which they are
                                    responsible. The manual establishes the local buying
                                    authority for facility repairs and alterations as less than
                                    $2,000. Facility repairs and alterations valued at $2,000 or
                                    more must be approved and coordinated through the
                                    Administrative Support Office in each District.

                                    The USPS Procurement Manual also applies the $2,000
                                    limit to ensure compliance with various statutory and
                                    legislative requirements, including the Davis-Bacon Act.4
                                    Specifically, the Act requires that contracts over $2,000
                                    contain a provision that sets minimum wages to be paid to
                                    all laborers and mechanics working on the work site.

    District Policy on Local        The Atlanta District also issued Standard Operating
    Buying Authority                Procedures on May 11, 1995, which provided additional
                                    restrictions to the national policy on local buying authority
                                    for facilities. It specifically states “[e]mergency projects
                                    $500 or less can be approved by the Atlanta Postmaster
                                    and Managers, Post Office Operations. All other repair and

3
  During the course of our review, we learned that three additional employees in higher-level positions received
  discipline related to the national policy on local buying authority. Because their situations were not presented to
  us, we did not include them in our audit.
4
  The Davis-Bacon Act, passed in 1931, was the first federal wage law to provide prevailing wage protection to non-
  government workers engaged in federal construction projects.



                                                          4
                                               Restricted Information
Allegations of Unwarranted Disciplinary Actions                                     LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                alteration projects must be approved by the Administrative
                                Services Office and funded by District finance before
                                authorization of work.”

 Violations of Policies         Four Postmasters received discipline because they
 on Local Buying                intentionally violated both the national and the District
 Authority                      policies for obtaining contractual support. These four
                                Postmasters split contractual services and payments to
                                accomplish one project and to ensure that they would not
                                exceed the local buying authority of $2,000.

                                For example, at one facility, the Postmaster awarded a
                                contract for $800 on January 10, 1996, to improve the post
                                office lobby appearance and to replace and repair damaged
                                areas. The contractor provided the services on February 9,
                                1996. On February 2, 1996, the Postmaster awarded a
                                second contract for $1,980 to improve customer service and
                                mailbox lobby appearance. The second contractor provided
                                services on February 7, 1996.

                                The Manager of Post Office Operations concluded that
                                since the scope of both contracts was nearly identical and
                                the service dates very close together, both contracts were
                                for services to improve the appearance of the post office
                                lobby and should have been contracted for as one project.

                                At another facility, the Postmaster split payments to one
                                contractor for parking lot repairs. The contractor was paid
                                $1,800 on June 5, 1996, and was paid $700 on June 18,
                                1996. The Manager of Post Office Operations concluded
                                that these two payments were for one project–to pave the
                                parking lot and driveway at a total cost of $2,500. The
                                Managers of Post Office Operations based their conclusions
                                on the scope of the work performed, use of the same
                                contractor, and payments to the contractor were within two
                                weeks of one another.

                                During the appeal process, the four Postmasters
                                acknowledged they were aware of the national policy on
                                local buying authority. By splitting payments and
                                contractual services, the Postmasters ensured that they
                                were below the approved buying authority of $2,000.
                                The remaining 16 Postmasters did not receive discipline
                                because their violations primarily involved failure to properly
                                prepare the USPS Form 7381, Requisition for Supplies,



                                                     5
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                Services, or Equipment, for low-dollar requests. Further,
                                they did not violate the national policy on local buying
                                authority. The Atlanta District’s Legal Department took
                                corrective action by providing training to the 16 Postmasters
                                to ensure compliance when issuing future contracts.

 Allegations                    Of the 31 cases we reviewed, 11 cases were related to
 Concerning                     failure to achieve minimum scores for Address Management
 Discipline Related to          System street reviews. All of the Postmasters represented
 Address Management             by these cases received discipline. We believe that this
 System Street                  discipline was not warranted. We agree with the
 Reviews                        Postmasters that individual discussions regarding corrective
                                action to improve their performance may have resolved the
                                problem. We found that the supervisor did not discuss
                                corrective actions nor the consequences of repeated poor
                                performance with each Postmaster. Because these
                                discussions did not occur, the Postmasters did not receive
                                the assistance that might have helped them improve their
                                performance. As a result, the Postmasters felt that the
                                discipline issued was punitive and their morale was
                                significantly impacted.

 USPS Policies on               Section 375.2 of the Employee and Labor Relations Manual
 Performance                    outlines USPS procedures for evaluating employee
 Evaluations                    performance. It states that unsatisfactory performance is a
                                level of performance which is repeatedly or consistently
                                below the minimum requirements expected of an employee
                                in the position, based on an evaluation of job-related
                                factors.

                                If the employee’s performance is unsatisfactory, the
                                supervisor is responsible for discussing performance with
                                that employee. Discussions should include constructive
                                measures that the employee should follow to improve
                                performance to a satisfactory level.

                                If a supervisor determines that an employee’s performance
                                is unsatisfactory and reasonable efforts toward improving
                                performance to a satisfactory level have not been
                                successful, the supervisor:

                                •	 can reassign the employee to a job where the employee
                                   can be expected to perform satisfactorily; or
                                •	 must take disciplinary action when necessary.




                                                     6
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                       LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


 USPS Guidelines on             The USPS Delivery/Address Management System Quality
 Delivery/Address               Review Guidelines identify policies and procedures for
 Management System              conducting and participating in Address Management
 Reviews                        System street reviews. A street review helps to ensure that
                                accurate addresses are identified and included in the
                                Address Management System database, and prevents
                                customers from being adversely affected.

                                An Area Address Management System Review Team
                                conducts the National Address Management System street
                                review each year. Forty routes are randomly selected for
                                review within a District.

                                The policy requires that each District have a goal of
                                achieving 100 percent accuracy for the street review. For
                                District scores below 98 percent, the manual states that an
                                audit must be conducted every six months until a score of
                                98 percent is achieved. However, in addition to achieving
                                the national score, the Atlanta District Manager required
                                each Postmaster to at least achieve the District’s average
                                score of 96.5 percent.

 Failure to Achieve             In July 1997 a street review resulted in 11 Postmasters
 Minimum Scores                 receiving discipline for failure to achieve the Atlanta District
                                minimum score. The District Manager gave the
                                Postmasters the opportunity to have their routes
                                immediately reassessed. Of the 11 Postmasters, 4 elected
                                to have their routes reassessed. The District Manager
                                rescinded disciplinary action on the four Postmasters
                                because the reassessments showed that they met or
                                exceeded the District minimum score.

                                According to the Atlanta District Manager, the Postmasters
                                were not advised that discipline would be issued if they did
                                not achieve the minimum score. The District Manager
                                stated “It would have been a threat to advise the
                                Postmasters of discipline in advance.”

                                The Manager of Post Office Operations stated that he could
                                not remember if he had a one-on-one conversation with
                                each Postmaster regarding the possibility of being issued
                                discipline. However, he told us that everyone was informed
                                of how critical the street review was and that he based his
                                decision to issue discipline on four letters issued to all
                                Postmasters.



                                                     7
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                                LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                 We reviewed the four letters issued by the District Manager
                                 of Operations Program Support.5 The letters were generic
                                 and addressed broad areas that could have potentially
                                 improved the street review scores, such as evaluating the
                                 address file, training employees, and allowing time to
                                 resolve errors. The letters also addressed potential awards
                                 that would be available to offices that met or exceeded the
                                 minimum score. However, the letters were not specific to
                                 any Postmaster or post office, nor did they advise or imply
                                 that discipline would be issued to Postmasters who did not
                                 achieve minimum scores.

                                 The District Manager acknowledged that “this might have
                                 been the first time folks were held accountable.” This
                                 statement is supported by correspondence related to the
                                 November 1996 street review, which revealed that 24 post
                                 offices failed to achieve the score and that none of those
                                 Postmasters received discipline.

                                 The Postmasters who received discipline after the July 1997
                                 street review told us that discipline was punitive and unfair
                                 because they did not receive notice of weaknesses within
                                 their specific post offices. In addition, they were not
                                 provided with improvement measures nor the opportunity to
                                 correct deficiencies before discipline was issued. We
                                 believe that conducting a discussion on unsuccessful
                                 performance in accordance with USPS policies could have
                                 aided the Postmasters in achieving the minimum scores for
                                 the street reviews.

    Compliance with              District management adhered to USPS policy for
    USPS Policy on the           determining the appropriate level of discipline for the 20
    Appropriate Level of         Postmasters who violated the local buying authority policy.
    Discipline                   The Manager of Post Office Operations, however, did not
                                 adhere to USPS policy when determining the corrective
                                 action to be taken against Postmasters for not achieving
                                 street review goals.

                                 In addition, the District Manager did not require the Manager
                                 of Post Office Operations to comply with USPS policy for
                                 managing unsatisfactory performance of Postmasters when



5
    These letters were dated March 17, 1997, April 22, 1997, May 20, 1997, and June 6, 1997.



                                                     8
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                      LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                he allowed discipline to be issued prior to corrective actions
                                being taken. We agree with the Postmasters that individual
                                discussions may have resolved the problem.

 USPS Policy on                 Subchapter 650 of the Employee and Labor Relations
 Issuing Disciplinary           Manual outlines the disciplinary action procedures for all
 Actions and District           employees not covered by the bargaining agreements.
 Process for Issuing
 Discipline for Local           Section 651.62 of the Employee and Labor Relations
 Buying Authority               Manual states, in part, that discipline may be taken against
 Violations                     an employee because: (a) of the gravity of the offense, or
                                (b) lesser measures have not resulted in the correction of
                                deficiencies in behavior or performance.

                                Sections 651.4 through 651.6 describe three primary types
                                of discipline issued to non-bargaining employees.

                                •	 Letters of Warning are issued when non-disciplinary
                                   corrective measures, such as discussions or counseling,
                                   have failed. They may also be issued because of the
                                   seriousness of the offense. The employee’s immediate
                                   supervisor may issue Letters of Warning.

                                •	 Letters of Warning in Lieu of Time-off Suspensions are
                                   initially written in a “proposal” format. This allows the
                                   employee and the employee’s representative an
                                   opportunity to review and reply to the charges to the next
                                   higher level of management within 10 calendar days of
                                   receipt.

                                •	 Adverse Actions are discharges, suspensions of more
                                   than 14 days, furloughs without pay, and reductions in
                                   grade or pay. Unless the circumstances of a particular
                                   case make it impractical, the employee’s immediate
                                   supervisor issues a written notice of proposed adverse
                                   action.

                                The Manager of Post Office Operations complied with
                                USPS policies for issuing discipline for violations of the local
                                buying authority. Specifically, the Atlanta District’s Legal
                                Department and Labor Relations Office conducted a joint
                                evaluation. They reviewed the policy contained in the
                                Employee and Labor Relations Manual, Subchapter 650, to
                                determine whether discipline was warranted. In addition,
                                the team considered the following information:



                                                     9
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                     LR-AR-99-012
 Against Postmasters in a District in the Southeast Area



                                •	 investigative memoranda;
                                •	 employees’ duties, positions and responsibilities; and
                                •	 employees’ past disciplinary records.

                                Based on the recommendations of the Legal and Labor
                                Relations team, the Managers issued the following
                                discipline:

                                •	 a Letter of Warning to one Postmaster;
                                •	 a Letter of Warning in Lieu of a Seven-Day Suspension
                                   to one Postmaster; and
                                •	 a Letter of Warning in Lieu of a 14-Day Suspension to
                                   two Postmasters.

 District Process for           The Manager of Post Office Operations did not comply with
 Issuing Discipline for         USPS policies for managing unsatisfactory performance
 Failure to Achieve             when he took punitive, rather than corrective, measures to
 Minimum Street                 improve the Postmasters’ performance. For example, a
 Review Scores                  corrective measure could have been an individual
                                discussion or counseling session.

                                The District Manager also did not comply with USPS
                                policies when he supported the Manager of Post Office
                                Operations’ decision to issue discipline in lieu of corrective
                                measures. The District Manager’s compliance with USPS
                                performance policies is critical to the internal control
                                process and employee morale. Employees’ morale would
                                be boosted based on observations of the District Manager’s
                                use of corrective, and not punitive, actions.

                                According to the District Manager, “everyone” knew what
                                the expectations were for the Address Management System
                                street reviews. The District Manager said, “After a point, if
                                the employees did not get the message, then all they
                                seemed to understand was discipline.” However, the
                                District Manager also said that in group discussions with
                                Postmasters, he did not advise them that discipline would
                                be issued for not achieving minimum scores on street
                                reviews.




                                                    10
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                  LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


 Recommendation                 We offer the following recommendation:

                                1. The Vice President, Southeast Area Operations, require
                                   the Atlanta District Manager and the Managers of Post
                                   Office Operations to comply with USPS policies
                                   regarding issuing discipline for unsatisfactory
                                   performance. In addition, hold these Managers
                                   accountable for issuing punitive discipline when
                                   corrective measures are available.

 Management’s                   The Vice President, Southeast Area, strongly disagreed with
 Comments                       the conclusion that management’s actions were punitive
                                and not corrective. He stated that the applicable provisions
                                are in the Employee and Labor Relations Manual
                                Subchapter 650. He said this Subchapter does not prevent
                                management from issuing discipline when warranted by the
                                failure of corrective measures or by the seriousness of the
                                offense. He also said that management at the Atlanta
                                District appropriately applied those procedures when they
                                issued discipline.

 Evaluation of                  We do not agree with management’s comments on this
 Management’s                   recommendation. The Employee and Labor Relations
 Comments                       Manual Subchapter 650 provides instruction on how to
                                administer disciplinary actions after a decision has been
                                made that discipline is in order. The Employee and Labor
                                Relations Manual Section 375.2 instructs managers on how
                                to manage, support and decide whether to issue discipline
                                to unsatisfactory performers. Our conclusion was that
                                management did not take corrective actions to improve
                                performance, and instead resorted to discipline.




                                                    11
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                         LR-AR-99-012
 Against Postmasters in a District in the Southeast Area




    Equitability of             Discipline issued to the 20 Postmasters for violating the
    Discipline                  local buying authority policy was equitable. The 16
                                Postmasters who violated the Atlanta District Standard
                                Operating Procedure did not receive discipline because the
                                infraction was not considered as severe as that of the four
                                Postmasters who violated both the national and District
                                policies. As a result, the 16 Postmasters received
                                mandatory training instead of discipline.

                                According to an Atlanta District Attorney in the USPS Legal
                                Department, the Legal and Labor Relations team was not
                                convinced of the validity of the District’s policy on local
                                buying authority. This was based on the Attorney’s belief
                                that all Postmasters may not have received copies of the
                                policy. In addition, the team did not believe that training on
                                the policy was effective. The Attorney also said that the
                                team found that violations of District policies were for low-
                                dollar amounts and did not result in a violation of the Davis-
                                Bacon Act.

                                In contrast, the four Postmasters who received discipline6
                                violated both the national and District policies when they
                                split contractual services and payments to ensure that they
                                would not exceed the local buying authority of $2,000.
                                According to the Attorney, the team believed that these
                                Postmasters intentionally circumvented the system.

                                Regarding the discipline issued for failure to achieve the
                                minimum score on the Address Management System street
                                review, we determined that discipline was not warranted
                                and therefore, we did not address equitability.

    Allegations                 Of the 31 cases we reviewed, 15 Postmasters were issued
    Concerning                  discipline and 16 received training. Of the 15 who received
    Disciplinary Action         discipline, 7 appealed the discipline through the USPS
    Appeals Process             appeals process. We found that the District Manager did
                                not adhere to the USPS disciplinary action appeals process;
                                specifically, he did not follow the prescribed timelines for
                                responding to the seven Postmasters.


6
  The discipline issued to the four Postmasters was subsequently removed through the Equal
Employment Opportunity mediation process because District Management believed it would not be cost-
effective to pursue the Agency’s decision.



                                                    12
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                           LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                Three of the seven cases were subsequently appealed to
                                the area reviewer. All three cases concerned Letters of
                                Warning in Lieu of Time-off Suspensions. We found the
                                response time in these three cases to be unreasonable
                                even though the USPS appeals policy does not stipulate a
                                timeframe for responding to appellants.

                                This lack of timeliness in responding to Postmasters
                                resulted in the perception that their concerns were not taken
                                seriously and that they were not treated fairly.

    USPS Policies on Non-       Subchapter 650 of the Employee and Labor Relations
    Bargaining Employee         Manual outlines steps for appealing disciplinary actions.
    Disciplinary Action         The procedures for appealing Letters of Warning are
    Appeals                     different from the procedures for appealing Letters of
                                Warning in Lieu of Time-off Suspensions.

    Policy on Appealing	        In cases where Postmasters are appealing Letters of
    Letters of Warning	         Warning, the Step A official is the Manager of Post Office
                                Operations and the Step B official is the District Manager.
                                The following applies when Postmasters appeal Letters of
                                Warning:

                                •	 Step A: The Postmaster or representative7 must appeal,
                                   in writing, to the Manager of Post Office Operations
                                   within ten calendar days of learning of the Letter of
                                   Warning. During this period, the Postmaster or
                                   representative has the opportunity to discuss the Letter
                                   of Warning with the Manager of Post Office Operations.
                                   The Manager of Post Office Operations must give a
                                   written decision within five calendar days after receipt of
                                   the appeal. Only under extenuating circumstances may
                                   the Manager of Post Office Operations respond after the
                                   five-day period. The Manager’s written decision must
                                   explain the reason for the delay.

                                •	 Step B: The Postmaster or representative has seven
                                   calendar days after receipt of the Step A decision to
                                   appeal, in writing, to the District Manager. The District
                                   Manager must then provide a decision, in writing, to the
                                   Postmaster or representative within ten calendar days
                                   after receipt of the appeal.


7
    The Employee and Labor Relations Manual allows employees free choice of representation.



                                                    13
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                      LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                •	 Review: The Postmaster or representative may request,
                                   in writing, a review of the Step B decision to the Area
                                   Human Resources Manager within 15 calendar days of
                                   receipt of the decision. A reviewing official is assigned
                                   and must provide a decision, in writing, to the
                                   Postmaster or representative. There is no established
                                   time limitation for the reviewing official to issue a
                                   decision.

 Policy on Appealing            In cases where management makes a decision to issue a
 Letters of Warning in          Letter of Warning in Lieu of Time-Off Suspension, the letter
 Lieu of Time-Off               must first be issued in a “proposed” format. In cases where
 Suspension                     Postmasters are appealing proposed Letters of Warning in
                                Lieu of Time-Off Suspensions, the following applies:

                                •	 The Postmaster and/or representative may reply in
                                   writing, and/or in person, to the District Manager within
                                   ten calendar days of receipt of the proposed letter.

                                •	 After full consideration of the reply or at the end of the
                                   ten-day period, the District Manager issues a letter of
                                   decision.

                                The Postmaster may appeal the District Manager’s decision
                                to the Area Human Resources Manager within 15 calendar
                                days of receipt of the decision. A reviewing official is
                                assigned and must provide a decision, in writing, to the
                                Postmaster or representative. The review of the appeal is
                                based solely on record and there is no opportunity for the
                                Postmaster or his or her representative to meet with the
                                reviewing official. The reviewing official issues a written
                                decision, and there is no further right of administrative
                                appeal. There is no established time limitation for the
                                reviewing official to issue a decision.

 Disciplinary Action            The District Manager did not adhere to the USPS
 Appeal Decisions Not           disciplinary action appeals process when he did not follow
 Rendered Timely                the prescribed timelines for responding to the seven
                                Postmasters.

                                We found three cases involving proposed Letters of
                                Warning In Lieu of Time-Off Suspensions where the District
                                Manager did not submit the written responses to the
                                appellants until approximately three months after their
                                meetings. For example, in two cases, the meetings



                                                    14
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                             LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                occurred on November 21, 1997, but the District Manager’s
                                decision was not issued until March 20, 1998. This is 108
                                days beyond the prescribed 10 calendar days.

                                In the other four cases involving Letters of Warning, we
                                found no record of a decision from the District Manager in
                                either the official personnel file or the District's disciplinary
                                action file.8 In one case, the appeal is dated September 15,
                                1997, and as of February 11, 1999, no record of decision
                                was found.

                                The District Manager admitted that there have been
                                occasions when he has not responded in a timely manner.
                                He told us that he could not remember the specifics of each
                                appeal, but acknowledged “things fell through the cracks.”
                                The Postmasters believed that the District Manager did not
                                take their appeals seriously when he did not respond within
                                a reasonable timeframe.

                                Three of the seven cases were subsequently appealed to
                                the area reviewer. All three cases were Letters of Warning
                                In Lieu of Time-Off Suspensions. We believe the response
                                time in these three cases was unreasonable. Specifically, in
                                two cases the area reviewer responded in excess of 70
                                days after the appeal was filed.9 One appeal was dated
                                April 10, 1998, and the decision was rendered June 23,
                                1998, a total of 73 days later. The other appeal was dated
                                March 31, 1998, and the decision was rendered June 23,
                                1998, a total of 83 days later. In the third case, the appeal
                                was dated March 24, 1998, and as of February 11, 1999,
                                there was no record of a decision in the files.

                                According to the Area Executive Program Director of Labor
                                Relations, his office is responsible for the area reviews of
                                Subchapter 650 appeals in the Southeast and Southwest
                                Areas. He told us that the reviewers try to respond to the
                                Subchapter 650 appeals within 30 days, and believes that
                                they are able to meet the 30-day timeframe. However, he
                                said, “. . . there are a few that fall through the cracks.”



8
  The Employee and Labor Relations Manual does not identify a time period for retaining Letters of
Warning.
9
  The collective bargaining agreements require that, at the National level, the employee meets and
attempts to resolve grievances between 21-30 days after bargaining employees file grievances.



                                                    15
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                                   LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


                                Although the USPS appeals policy does not provide a
                                timeframe when the appellant can expect a decision from
                                the area reviewer, we believe more than 70 days is
                                unreasonable.

 Recommendations                We offer the following recommendations:

                                2. The Vice President, Southeast Area Operations, require
                                   the Atlanta District Manager to comply with USPS
                                   policies regarding the disciplinary action appeals
                                   process for non-bargaining employees. In addition, hold
                                   the District Manager accountable for appeals not
                                   handled in a timely manner.

                                3. The Vice President, Labor Relations, modify the
                                   Employee and Labor Relations Manual to include a
                                   specific timeframe for the area reviewer to respond to
                                   Subchapter 650 disciplinary action appeals.

 Management’s                   Management provided the following responses to our
 Comments                       recommendations.

                                The Vice President, Southeast Area Operations, agreed that
                                the timeframes for appeal in the Employee and Labor
                                Relations Manual Subchapter 650 are to be followed. He
                                stated that the District Manager will be instructed to
                                establish a local monitoring mechanism to assure that
                                appeals are properly processed.

                                The Vice President, Labor Relations, agreed with our
                                recommendation and stated that the current provisions
                                governing disciplinary action appeals do not provide specific
                                time limits for completing review of a Step B appeal. He
                                stated, however, that as a general rule, the Step B decision
                                occurs within a 60-day timeframe. In order to reinforce the
                                need for timely review and final disposition, he issued a
                                memorandum to the responsible managers outlining the 60-
                                day requirement.

 Evaluation of                  Management’s comments and actions are responsive to the 

 Management’s                   intent of our recommendations. 

 Comments 





                                                    16
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area




                                                    17                Appendix
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area




                                                    18                Appendix
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area




                                                    19                Appendix
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area




                                                    20                Appendix
                                          Restricted Information
Allegations of Unwarranted Disciplinary Actions                    LR-AR-99-012
 Against Postmasters in a District in the Southeast Area


 Major Contributors to
 This Report




                                                    21
                                          Restricted Information
